IN THE
SUPREME COURT OF THE UNITED STATES
___________________________

Scott Raymond Tignor v. United States of America
___________________________

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
___________________________
APPENDIX 1a

United States v. Tignor, 981 F.3d 826 (2020)

defendant Mr. Scott Tignor pleaded guilty, our case law said
that someone would incur guilt by knowingly possessing a
firearm after obtaining a felony conviction. United States
v. Griffin, 389 F.3d 1100, 1104 (10th Cir. 2004). Under
this case law, defendants would remain guilty even if they
hadn't known that their prior convictions involved felonies.

981 F.3d 826
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Scott Raymond TIGNOR, Defendant - Appellant.

United States v. Games-Perez, 667 F.3d 1136, 1140–42
(10th Cir. 2012).

No. 19-1158
|
FILED December 1, 2020

But soon after Mr. Tignor pleaded guilty, the case law changed

Synopsis
Background: Defendant pled guilty in the United States
District Court for the District of Colorado, Philip A. Brimmer,
Chief Judge, to being felon in possession of firearm, and he
appealed.

The Court of Appeals, Bacharach, Circuit Judge, held
that district court did not commit plain error in accepting
defendant's plea.
Affirmed.
Procedural Posture(s): Appellate Review; Plea Challenge or
Motion.
*827 Appeal from the United States District Court for
the District of Colorado (D.C. No. 1:18-CR-00524-PAB-1)
Attorneys and Law Firms
Kathleen Shen, Assistant Federal Public Defender (Virginia
L. Grady, Federal Public Defender, with her on the briefs),
Denver, Colorado, for the Defendant-Appellant.
Karl L. Schock, Assistant United States Attorney (Jason R.
Dunn, United States Attorney, with him on the brief), Denver,
Colorado, for the Plaintiff-Appellee.
Before LUCERO, KELLY, and BACHARACH, Circuit
Judges.

when the Supreme Court decided
Rehaif v. United States,
––– U.S. ––––, 139 S. Ct. 2191, 204 L.Ed.2d 594 (2019).
There the Supreme Court held that the government needed to
prove that the defendant had known that “he belonged to the
relevant category of persons barred from possessing a firearm.
139 S. Ct. at 2200. Given the holding in
Rehaif, the
government needed to prove that Mr. Tignor had known that
his prior conviction was punishable by more than a year in
prison.
United States v. Trujillo, 960 F.3d 1196, 1200–01
(10th Cir. 2020).
Invoking
Rehaif, Mr. Tignor urges vacatur of his guilty
plea because he wasn't *828 told about the newly recognized
element. For this issue, the parties agree that the plain-error
standard applies. Under this standard, we consider whether
Mr. Tignor showed a reasonable probability that he would not
have pleaded guilty if he'd known that the government needed
to prove knowledge of his prohibited status.
Id. at 1207–
08. We answer “no” because Mr. Tignor lacked a plausible
defense. We thus affirm his conviction.
I. Mr. Tignor's prior conviction was punishable by over
a year in prison.
In 2002, Mr. Tignor was convicted in Texas of aggravated
assault causing serious bodily injury. Under Texas law,
aggravated assault constituted a second-degree felony
punishable by 2 to 20 years’ imprisonment. See
Code §§ 22.02(a)(1),

Tex. Penal

(b), 12.33(a).

For the conviction on aggravated assault, Mr. Tignor was

Opinion
BACHARACH, Circuit Judge.
This appeal involves a guilty plea for possessing a firearm
after a felony conviction.

18 U.S.C. § 922(g)(1). When

sentenced to 10 years of shock probation. 1 But the court later
revoked probation and imposed a prison term of 7 years. Mr.
Tignor served about 2 years of that sentence and was released
about 13 years ago. After obtaining release, he moved to
Colorado.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a-1

1

United States v. Tignor, 981 F.3d 826 (2020)

While living in Colorado, Mr. Tignor asked for someone in
the Sheriff's Department to come to his house to investigate a
theft. Unbeknownst to Mr. Tignor, the officers had a warrant
for his arrest. So they came to his house prepared to arrest
him. Unaware of the warrant, Mr. Tignor announced that he
had a firearm. The officers retrieved the firearm, which led
to a federal charge of unlawfully possessing a firearm after a
18 U.S.C. § 922(g)(1). The charge
felony conviction. See
culminated in a guilty plea. Afterward, Mr. Tignor said that
he had known about a Texas law that he thought would allow
him to possess a firearm at his home.
II. Mr. Tignor's forfeiture of his appellate argument
triggers plain-error review.
Mr. Tignor did not raise his appellate argument in district
court, so we apply the plain-error standard.
United States
v. Trujillo, 960 F.3d 1196, 1201 (10th Cir. 2020). Under this
standard, Mr. Tignor must show an obvious error that affects
his substantial rights and “seriously affects the fairness,
integrity or public reputation of judicial proceedings.”
Id.
(quoting United States v. Samora, 954 F.3d 1286, 1293 (10th
Cir. 2020)).
III. The district court committed an obvious error.
The government concedes the existence of an obvious error,
and we accept this concession. The Federal Rules of Criminal
Procedure require district courts to inform a defendant of
the nature of the charge before accepting a guilty plea. Fed.
R. Crim. P. 11(b)(1)(G). Given this requirement, the court
must inform defendants of the elements before accepting their
guilty pleas.
Cir. 2008).

Hicks v. Franklin, 546 F.3d 1279, 1284 (10th

Despite this requirement, the district court accepted Mr.
Tignor's guilty plea without telling him that the government
needed to prove knowledge of his prohibited status. The
omission is understandable, but it is still an obvious error
under current law. See
Trujillo, 960 F.3d at 1201 (“While
the district court correctly applied the law as it existed at the
time, the court's failure to inform Defendant of the *829
knowledge-of-status element constitutes error that is plain on
appeal.”).

IV. Mr. Tignor hasn't proven a reasonable probability
that he would have pleaded not guilty without the error.
Even though an obvious error took place, Mr. Tignor needed
to show that the error had affected his substantial rights. Id.
The required showing entails a reasonable probability that
without the error, Mr. Tignor would have pleaded not guilty.
Id. at 1208.
A. Mr. Tignor did not waive this argument.
The government argues that Mr. Tignor waived this argument
by failing to address it in his opening brief. There he
argued that the district court had committed a structural error,
requiring reversal of the conviction even if he couldn't show
a reasonable probability of a different result. At the time, we
hadn't decided whether to characterize this error as a structural
error and a circuit split existed elsewhere. Compare United
States v. Williams, 946 F.3d 968, 972–73 (7th Cir. 2020)
(concluding that this error was not structural), with United
States v. Gary, 954 F.3d 194, 201 (4th Cir. 2020) (concluding
that this error was structural). Given this circuit split, the
government argued that we should join those courts declining
to characterize this error as structural. After the briefing was
complete, we decided the issue, agreeing with the government
that the error was not structural.
United States v. Trujillo,
960 F.3d 1196, 1207–08 (10th Cir. 2020). But the government
then argued that Mr. Tignor had waived this argument by
failing to address it in his opening brief. We disagree.
When he filed his briefs, he could reasonably urge
the existence of a structural error and he did. Under
these circumstances, Mr. Tignor reasonably replied to the
government by arguing that he'd satisfied the standard
embraced by the government. See United States v. Zander,
794 F.3d 1220, 1232 n.5 (10th Cir. 2015) (allowing the
appellant to urge plain error in the reply brief after urging in
the opening brief that the error had been preserved). We thus
address the argument that Mr. Tignor newly presented in his
reply brief.
B. Mr. Tignor has not shown a reasonable probability
that he would have pleaded not guilty without the
error.
Mr. Tignor urges a reasonable probability that he would have
pleaded differently if he had known that the government
needed to prove knowledge of his prohibited status.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a-2

2

United States v. Tignor, 981 F.3d 826 (2020)

According to Mr. Tignor, he would have pleaded not guilty
because he
• had not known that his Texas offense was punishable by
more than one year imprisonment and
• had believed that the government restored all of his civil
rights.
18 U.S.C. § 921(a)(20) (defining a “crime punishable
See
by imprisonment for a term exceeding one year” to exclude
“[a]ny conviction ... for which a person ... has had civil rights
restored”).
1. A crime punishable by more than one year in prison
Mr. Tignor argues that the government couldn't prove
knowledge that his prior offense was punishable by over a
year in prison. In support, he argues that
• he may have forgotten the details of his Texas conviction
because it had been imposed roughly sixteen years
earlier and
*830 • the original sentence entailed ten years of shock
probation (not imprisonment) and he served two years in
prison only after his probation had been revoked.

First, when Mr. Tignor's probation was revoked, he was
sentenced to seven years’ imprisonment. For this sentence, he
served roughly two years in prison. Mr. Tignor presumably
wouldn't forget that he'd spent well over a year in prison after
obtaining the conviction.
Second, when Mr. Tignor pleaded guilty to aggravated
assault, Texas law required the state court to inform him of
Tex. Code Crim. Proc.
the possible sentencing range. See
Ann. art. 26.13(a)(1) (stating that “[p]rior to accepting a plea
of guilty ..., the court shall admonish the defendant of” “the
range of the punishment attached to the offense”). That range
was 2 to 20 years’ imprisonment. See

§§ 22.02(a)(1) and
(b), 12.33(a). So Mr. Tignor likely
knew that aggravated assault was punishable by more than
one year in prison. See
United States v. Burghardt, 939
F.3d 397, 404 (1st Cir. 2019) (noting that when a state's law
“requires a judge to make sure that a defendant knows the
maximum possible sentence when entering a guilty plea,” it
was “virtually certain” that he was so informed).
For both reasons, Mr. Tignor faces an “uphill battle” to show
that the error affected his substantial rights:

Given these facts, Mr. Tignor argues that he could have
plausibly defended on the current charge by denying
knowledge that his Texas crime had carried a potential prison
sentence exceeding a year. We disagree.

[A]ny
§ 922(g) defendant who
served more than a year in prison
on a single count of conviction will
face an uphill battle to show that a

Even if Mr. Tignor had forgotten some of the details, he knew
that he was a convicted felon. For example, Mr. Tignor argued
at sentencing that he thought that a Texas law allowed him
to possess a firearm. But that law applied only to convicted

Rehaif error in a guilty plea affected
his substantial rights—at least on a
silent record. [The defendant] faces
an even steeper climb because his
record is not truly silent, and the little
evidence available further supports the
conclusion that he would have decided
to plead guilty even if he had been
informed of the government's burden
of proof.

felons. See
Tex. Penal Code § 46.04(a)(1)–(2) (stating
that individuals convicted of a felony commit a crime by
possessing a firearm outside their homes more than five years
after release from confinement).
Of course, if the current case had gone to trial, it wouldn't
have been enough for the government to prove knowledge
of a felony conviction; the government would also have
needed to prove knowledge that the conviction entailed “a
crime punishable by imprisonment for a term exceeding one
year.”
18 U.S.C. § 922(g)(1). But two pieces of evidence
suggest that Mr. Tignor had known that the Texas felony was
punishable by more than a year in prison.

Tex. Penal Code

United States v. Williams, 946 F.3d 968, 974 (7th Cir.
2020) (citing
United States v. Vonn, 535 U.S. 55, 74, 122
S.Ct. 1043, 152 L.Ed.2d 90 (2002)).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a-3

3

United States v. Tignor, 981 F.3d 826 (2020)

Mr. Tignor points out that he obtained the seven-year sentence
only after the state court revoked his probation. But Mr.
Tignor didn't just get his probation revoked; he also spent
roughly two years in prison. Because he actually served
roughly two years in prison, he knew that the prior conviction
id. at
ultimately led to a prison term of over a year. See
973 (stating that a defendant who served more than a year
*831 in prison on a conviction “cannot plausibly argue that
he did not know his conviction had a maximum punishment
exceeding a year”); see also
Trujillo, 960 F.3d at 1208
(concluding that the defendant could not show a reasonable
probability that if he had been advised of the government's
need to prove knowledge of his prohibited status, he would
not have pleaded guilty because he had “served a total of four
years in prison for six felony offenses”). We thus conclude
that Mr. Tignor lacked a plausible argument that he hadn't
known that his prior conviction was punishable by more than
a year in prison.
2. Restoration of civil rights after a conviction
Mr. Tignor points out that defendants can possess firearms
after obtaining restoration of their civil rights. 18 U.S.C. §
921(a)(20). Relying on this provision, Mr. Tignor argues that
he could have defended based on a belief that his civil rights
had been restored. In support, Mr. Tignor cites
• the Texas law, which permits convicted felons to possess
a firearm at their own homes more than five years after
release (

Tex. Penal Code § 46.04(a)(1)–(2)),

• a Texas election law, which defines a “qualified voter”
to include convicted felons who have “fully discharged”
their sentences (

Tex. Elec. Code § 11.002), and

• his statement to the arresting officers that he was armed.

We have not yet decided whether the government must prove
knowledge that the defendant hadn't obtained restoration of
his civil rights. But even if the government had this burden,
Mr. Tignor's arguments would fail for two reasons.
First, Texas law didn't apply. The crime was federal, and Mr.
Tignor possessed the firearm after he'd already moved from
Texas to Colorado.
Second, Mr. Tignor presumably knew that some of his civil
rights had not been restored. In United States v. Flower, 29
F.3d 530 (10th Cir. 1994), we considered whether a defendant
had obtained restoration of his civil rights. The defendant
had a previous Utah felony conviction, which prevented him
from serving on a jury.

Id. at 536. Because of this one

unavailable right, he hadn't had his civil rights restored. Id.
So defendants obtain restoration of their civil rights only if
they have reacquired all of their civil rights.
Mr. Tignor couldn't plausibly assert a belief that all of his
civil rights had been restored. Indeed, he relies on a law
that prevented him from taking the firearm anywhere outside
his home. See
Tex. Penal Code § 46.04(a)(1)–(2). So Mr.
Tignor presumably knew that at least some of his civil rights
hadn't been restored.
***
For these reasons, we conclude that Mr. Tignor failed to show
a reasonable probability that he would have pleaded not guilty
if he'd known of the newly recognized element. 2 Mr. Tignor
thus failed to show a reasonable probability that he would
have pleaded not guilty in the absence of the error. So we
affirm his conviction.
All Citations
981 F.3d 826

Footnotes
1

At that time, Texas used the term “shock probation” to refer to a term of probation after the defendant had
already spent time in confinement. State v. Garza, 442 S.W.3d 585, 587–88 (Tex. App. 2014).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a-4

4

United States v. Tignor, 981 F.3d 826 (2020)

2

The government makes three additional arguments: (1) Mr. Tignor obtained a three-level sentence reduction
for accepting responsibility when he pleaded guilty, (2) the evidence of guilt was overwhelming, and (3) the
underlying facts of the prior conviction would have been admissible at trial to show knowledge that the crime
was punishable by more than one year. We need not address these additional arguments.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a-5

5

